IN THE SUPREME COURT OF THE UNITED STATES
No. 19-262
Xiao-Ying Yu
Petitioner
V.
Maryland Department of Health, Secretary Robert Neall and
Maryland Department of Budget and Management, Secretary David Brinkley
Respondents

APPLICATION FOR SUSPENSION OF ORDER
DENYING THE CERTIORARI
Dear Honorable Chief Justice of Supreme Court of the United States, John G.
Roberts Jr.:
Petitioner, Xiao-Ying Yu, Per Se., respectfully makes application pursuant to
Rule 16.3 to suspend the order denying her petition for a writ of certiorari, in the
above—entitled cause, to U.S. Court of Appeals at Fourth Circuit, docket No. 19- 262,
entered on October 21, 2019, pending the filing and final disposition of her petition
for rehearing. In support of this application, the petitioner states as follows:

1.

If the order denying the certiorari is not suspended, some organizations,

(who usually do not file amicus brief for petitions at denial status) will not submit
amicus brief and this Court will not be able to hear different opinions and brief
regarding the legal arguments in the similar cases as Petitioner and lower Courts
presented. Also, the recent (10/28/2019 afternoon) denial of Petitioner's request to
remain the pending U.S. Court of Appeals at Fourth Circuit's mandate which was
issued without prior denying Petitioner's motion for stay and violated Fed. R. App.
P. Rule 41(b), and to correct the deletion and alteration of the Fourth Circuit 's

1

docket records, in accordance with its inappropriate judgment and judiciary
reviewing process involved unconstitutional deprivation of Petitioner's property
without mitigation or a hearing or jury as retaliatory actions against Petitioner's
prior charges with EEOC under ADEA, Title VII and ADA, will not be controlled
and prevented.
2. If the petition for rehearing is granted based on this Court's previous
decisions and opinions on similar cases, the Petitioner will be given a argument
hearing chance by this Honorable Court according to Congressional clear intention
for the power of enforcement under both Section 1 and 5 of "Due Process of Law"
and "Equal Protection" Fourteenth Amendment to U.S. CONST because the
Petitioner has never been given a hearing chance by the Respondents, U.S. District
court of Maryland and Fourth Circuit for the genuine factual and legal issues prior
to their decisions to deprive the Petitioner's property right without
mitigation/hearing. The Court's previous decisions and opinions in the granted
petitions related to her petition for rehearing:
1) The EEOC's charge—filing requirement is not a jurisdictional
prerequisite to suit (Fort Bend County v. Davis, 2019), in spite that the receipt of
EEOC's 10/16/2017 right-to-sue letter by the U.S. District Court of Maryland was
demonstrated by their docket records in the Petitioner's case (17-CV-3260-JKB
ECF#20 and Ms. Yu's petition-related exhibit#9a, App. 191, and Exhibit#27b, App.
448);

2

The employer's intentional discrimination and retaliation against the
Petitioner's complaints and charges under Title VII, ADEA and ADA were
prohibited (Young v. UPS, 2015; University of Texas Southwestern Medical Center
v. Nassar, 2013); and
The employer should be liable to the supervisor's harassment,
discrimination and retaliation (Vance v. Ball State University, 2013). In this case,
the employer responded the Petitioner's claims in U.S. District Court of Maryland
and appeal at Fourth Circuit, and agreed Ms. Bara Sara as supervisor's position but
failed to provide any legitimate, un-discriminatory, un-retaliatory and un-pretext
reasons for the disparate treatments proved by convincing and valid evidence
including EEOC-FOIA recording files regarding the supervisor's harassment,
discrimination, retaliation and also motivation for the unlawful constructive
discharge during accommodation interactive period which were tolerated and
supported by defendants managers leading to the unlawful termination as well as
the supervisor's interference of EEOC's investigation after termination (McDonnell
Douglas Corp v. Green, 1973). Therefore, if the petition for rehearing is granted,
according to this Court justices' opinions, the Respondents should be liable to the
supervisor's harassment, discrimination and retaliation against the petitioner's
internal complaint, grievance and appeal and EEOC charges under ADEA, ADA
and Title VII as well as the consequent damages;
The Respondents' sovereign immunity under Eleventh Amendment
from Petitioner's claims of unlawful termination of the Petitioner's seniority job

3

(supported by Federal CDC funding) without mitigation as retaliation against her
EEOC charge under Title I ADA (workplace disability discrimination and
retaliation), Title VII and ADEA should be preempted because Congress has clear
intention to abrogate state's immunity to ADA claim and to have power of
enforcement for litigation under both Section 1 and 5 of "Due Process of Law" and
"Equal Protection" Fourteenth Amendment to U.S. CONST. The application of
Congressional abrogation of State's immunity to Title I ADA claim was also
interpreted and exercised by this Court's published opinions as contingent upon
existence of both section 1 "Due Process of Law" and Section 5 "equal Protection"
demonstrated in employee's Title I ADA complaint (Goldberg v. Kelly, 397 U.S. 254;
Board of Trustees of the University of Alabama v. Garrett, 531, U.S. 356 2001). Also,
the Section 504 of Rehabilitation Act, 29 U.S.C.§794 prohibits discrimination
against people with disability in programs and jobs that employer received federal
financial assistance because the Petitioner's seniority job was supported by Federal
CDC funding but was terminated without mitigation.
3. This petition for rehearing is contemplated on the ground of the significant
confliction among the Fourth Circuit (18-1889, Petitioner's case) and other circuits
on the judicial review and decisions for claims of workplace discrimination and
retaliation under Title VII, ADEA, ADA and Section 504 of the Rehabilitation Act
(DeBose v. Nebraska, in 8th Circ.; Pomeroy v. Western Michigan University in 6th
Circ.; Webb v. Clyde L. Choate Mental Health and Developmental Center 7th Circ.;
and Cisneros v. Wilson in 10th Circ.; Koslow v. Pennsylvania; and Wilson v.

4

Pennsylvania State Police Department in 3rd Circ.), as well as current petition
presented before this Court (case No. 18-1139). Also this petition for rehearing is
based on the development of debates on whether state's immunity to employee's
claims related to ADA, Title VII and ADEA leading to deprivation of employees'
property without mitigation or a hearing and damages to their health and life can
be preempted based on the Congressional enforcement power by "Due process of
Law" and "Equal Protection" of two Clauses of Fourteenth Amendment to U.S.
CONST., and Section 504 Rehabilitation Act. These issues cannot be addressed and
resolved by other Courts.
Wherefore, the petitioner prays that this application be granted.
Respectfully submitted,

Wiol
ao-Ying Yu, Pro se.
Mailing address:
P.O. Box 293
Abingdon, MD 21009

5

